App. la
[CERTIFIED TRANSLATION]
I, Carlos Lao Davila, a Federally certified inter­
preter, number 03-052, hereby certify that the at­
tached document is a true and exact translation of
the original
Identification Number 03-052
COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
JUDICIAL REGION OF SAN JUAN AND CAGUAS
V PANEL
DR. SAMUEL DAVID
SILVA RAMIREZ
Petitioner
v.
HOSPITAL ESPANOL
AUXILIO MUTUO DE
PUERTO RICO, INC.,
SOCIEDAD ESPANOLA
DE AUXILIO MUTUO Y
BENEFICIENCIA DE
PUERTO RICO, INC.;
SOCIEDAD ESPANOLA
DE AUXILIO MUTUO
INC., DR. JOSE ISADO
ZARDON AND THE
CONJUGAL PARTNER­
SHIP COMPRISED BY
HIM AND MRS. DIANA
VIGIL VIGIL
Appellee

KLCE201701318
Certiorari
Coming from the
First Instance Court,
Ponce Part
Case No.:
K PE20015-3721
Re:
Rule 49.2, Fraud and
False Representation

App. 2a
Panel comprised by its president, Judge Sanchez Ra­
mos, Judge Soroeta Kodesh, and Judge Romero Garcia.
Soroeta Kodesh, Judge who writes the opinion.
JUDGMENT
In San Juan, Puerto Rico, February 13, 2019.
Through an appeal erroneously named certiorari,
Dr. Samuel D. Silva Ramirez appeared, pro se, herein­
after (the appellant). Requests from us to review a
Judgment issued on July 28, 2016 and notified on Au­
gust 2,2016, through the First Instance Court (herein­
after, FIC), Ponce Part. Through ruling issued, the FIC
dismissed, with prejudice, the Complaint filed by the
appellant and imposed the payment of $5,000.00; for
attorney fees.
[Seal of the Puerto Rico Court of Appeals]
On August 18, 2017, we issued a Resolution in
which we tended the filing as an appeal, because it pro­
ceeded under the law, although for reasons of proce­
dural expediency, it kept its original alphanumeric
designation (KLCE201701318). Thus, accepted and
due the grounds below, the appealed Judgment is con­
firmed.
I.
On March 4,2011, the appellant filed a Complaint
(K PE2011-0846), regarding a declaratory judgment,
permanent injunction, and damages against Hospital

App. 3a
Auxilio Mutuo de Puerto Rico (hereinafter, Hospital)
and against Dr. Jose Isado Zardon, his wife, and the
conjugal partnership comprised by them. In synthesis,
he requested that the first instance court determine
that the termination of his appointment and clinical
privileges in the Hospital was illegal and discrimina­
tory, due to his religious beliefs. In addition, he re­
quested the amount of $10,000,000.00 due to the
damages allegedly suffered for said action. In turn, the
appellant filed a preliminary injunction petition for the
FIC to order the Hospital to reinstate his clinical priv­
ileges and withdraw the notification to the National
Practitioners Data Bank (NPDB), regarding the result
of the disciplinary action that was carried out against
him by the Hospital authorities. It is important to
mention that the appellant’s privileges were sus­
pended, since, during the disciplinary proceeding per­
formed by the Hospital, it was concluded that on
October 14, 2009, the appellant performed a steriliza­
tion without counting, at that time, with the written
consent of the patient.
After the hearings regarding the injunction peti­
tion, on October 27, 2011, the FIC issued a Partial
Judgment in which it granted a preliminary injunction
and ordered the reinstatement of the appellant’s priv­
ileges. Notwithstanding, the appealed court concluded
that it was not proven that suspension of privileges
was due to the religious beliefs of the Hospital. Not sat­
isfied with the previous result, the Hospital filed ap­
peal (KLAN201101585). Through a Judgment issued
on March 27,2012, another Panel of this Court revoked

App. 4a
the appealed ruling and, therefore, the granting of the
preliminary injunction. The case was returned to the
first court for the continuation of the ordinary proceed­
ings.
Subsequently, the Hospital filed a request for sum­
mary judgment. In essence, the Hospital affirmed that
no dispute of fact existed that impeded the first court
to approve the correction of the administrative pro­
ceeding that ended the permanent suspension of the
clinical privileges of the appellant. Therefore, it re­
quested the dismissal of the complaint filed against it.
The appellant opposed the request for summary judg­
ment and alleged that several facts existed in dispute.
It accompanied its opposition with a sworn statement
signed by it.
At the end of several procedural steps, on March
16, 2014, the first court issued a Judgment, summarily,
in which it dismissed the instant Complaint. Not
happy with said result, the appellant requested a re­
consideration that was also denied.
Not satisfied with the aforementioned determina­
tion, the appellant filed an appeal before this Court
(KLAN201400743). Through a Judgment issued on Au­
gust 29, 2014, another Panel of this Court confirmed
the appealed Judgment. In sum, the Panel concluded
as follows:
In sum, the court a quo concluded that the ad­
ministrative procedure of the Hospital that ended
with the definite suspension of the clinical privi­
leges of the appellant was cemented in the lack

App. 5a
of the written consent of the patient for ster­
ilization, which is not included in her record.
We agree with this appreciation, that is supported
in the extensive documentary evidence that is in­
cluded in the instant record. (Emphasis in the
original).
We rule that the First Instance Court could
summarily dispose of Dr. Silva’s complaint be­
cause the essential facts for its definite disposition
were not controverted by him in his opposition to
the motion filed by HEAM. The evidence that is
contained in the record on these core facts or ma­
terials that were not controverted is sufficient and
preponderant to sustain the summary judgment
appealed.
Subsequently, on September 14, 2015, the appel­
lant filed a request to have the judgment vacated,
which was denied by the primary court due to lateness.
Thus, on December 15, 2015, the appellant filed an­
other Complaint, which initiated the instant case (K
PE2015-37210). In synthesis, he requested to have the
Judgment issued on March 17,2011 vacated and to or­
der the reinstatement of his medical privileges in the
Hospital.
On February 17, 2016, notified on February 29,
2016, the FIC issued a Partial Judgment and Order. In
synthesis, it dismissed the preliminary injunction and
ordered the ordinary proceeding of the Complaint. Spe­
cifically, the court that issued the decision concluded
the following:

App. 6a
The plaintiff requests the issuance of an injunc­
tion as a mechanism to decree the nullity of a judg­
ment. As we have seen, the plaintiff has an
ordinary cause of action, meaning an adequate
remedy under the law to file his allegation. There­
fore, the existence of an adequate remedy, pre­
vents the Court from issuing an extraordinary
remedy, as the injunction.
Due to the above, the cause of action of the injunc­
tion is dismissed, because it does not proceed un­
der the law. The above, does not limit the plaintiff
from continuing his claim through the cause of ac­
tion of judgment nullification; thus, through this
Partial Judgment said cause of action is dismissed
and its dismissal is ordered.1
In turn, dated May 4, 2016, the appellants filed a
Motion Requesting the Dismissal of the Amended Com­
plaint due to Lack of Jurisdiction over the Issue and
Application of the Res Judicata Doctrine, then accord­
ing to them the controversy presented by the appellant
in the Complaint was res judicata. On May 27, 2016,
the appellant filed a Motion in Opposition to the Mo­
tion Requesting the Dismissal of the Amended Com­
plaint due to Lack of Jurisdiction on the Issue and
Application of the Res Judicata Doctrine. While the
FIC decided on the motions stated above, on June 9,
2016, the appellant filed a Motion Requesting Granting
the Beginning the Discovery of Evidence and Notice for
Request of Production of Documents. In turn, on June
20, 2016, the appellants filed an Urgent Motion for
1 See, Partial Judgment and Order, Attachment 31 of the Ap­
pendix of the appeal, page 171.

App. 7a
Waiver of Discovery of Evidence Until a Resolution of
Request for Dismissal due to Lack of Jurisdiction.
Thus, on July 28,2016, notified on August 2, 2016,
the FIC issued a Judgment in which it received the dis­
positive motion from the appellees and dismissed, with
prejudice, the captioned Complaint. In addition, the
court that issued the Judgment concluded that reck­
lessness of the appellant was evident, and imposed on
him the amount of $5,000.00 for attorney fees. In the
relevant part of the appeal before us, the first court
concluded as follows:
Pursuant to the jurisprudence stated above in
the instant case, the requirements are not met to
vacate or nullify the judgment issued in case
K PE2011-0846.
Thus, from the allegations contained in the
complaint and the documentation that was at­
tached to it, it is not evident because the letter
that is alleged to constitute new evidence that jus­
tifies to vacate the Judgment issued in case
K PE2011-0846, was material or relevant evi­
dence to the adjudication of the claim in that case.
[. . . ] When taking judicial notice of the proceed­
ings in case KPE2011-0846, including the proceed­
ings before the CA in appeal KLAN201101585,
advise that the here and there plaintiff between
its claim alleged that he had been discriminated
for religious reasons. Said cause of action was ad­
judicated and denied on its merits by the FIC as
well as the CA.
[...]

App. 8a
In turn, the complaint did not state in detail
the circumstances which constitute fraud to the
Court. According to the law cited, the mere fact of
alleging there was fraud does not constitute the
circumstances that allow to vacate a judgment.
Pardo v. Sucn. Stella, supra.
Thus, having evaluated the allegations of the
complaint and the documentation attached to it,
the elements that justify the nullification of the
adjudications made in said case cannot be seen, by
the FIC as well as the CA. In addition, it is evident
that the instant case is another attempt of the
plaintiff to re-litigate some issues that have been
adjudicated on the merits by several judicial fo­
rums for which we determined that said party was
reckless by filing the instant case. Rule 44.1(d) of
Civil Procedure.2
Not satisfied with said judgment, on August 15,
2016, the appellant flied a Reconsideration. The appeal
forum requested that the appellees express themselves
regarding said request. On September 1, 2016, the ap­
pellees filed a Motion in Opposition to the Request for
Reconsideration. While the request for reconsideration
was before the consideration of the FIC, the appellant
once again appealed before this Forum and requested
the issuing of a mandamus writ to order a discovery of
evidence in case (KLRX201600060). Through a Judg­
ment issued on August 31, 2016, another Panel of this
Court dismissed the mandamus filed by the appellant.
The aforementioned, after concluding that the request
2 See, Judgment, Attachment to the Appendix of the appeal,
pages 986-987.

App. 9a
for the mandamus was highly discretional and the ap­
pellant having other remedies under the law.
It is important to state that the appellant re­
quested the inhibition of the deciding judge in the in­
stant case. On May 15, 2017, notified on May 23, 2017,
Superior Judge, Hon. Pedro J. Polanco, issued a Reso­
lution in which it Denied the request for inhibition filed
by the appellant. Specifically, the FIC ruled the follow­
ing:
It is evident that the complaint from the plaintiff
refers to judicial determinations that can only be re­
viewed through the revision channels that the law pro­
vides the affected party. The plaintiff cannot intend
that, through the inhibition mechanism, another judge
of equal hierarchy has to pass judgment once again
over the controversies of a case in which final judgment
has been issued, only because the plaintiff believes the
Judge affected its determination.3
Finally, on June 29, 2017, notified on July 4, 2017,
the FIC Denied the request for reconsideration filed by
the appellant.
Not satisfied with the aforementioned result, on
July 25, 2017, the appellant filed the captioned appeal
in which he stated that the FIC made six (6) errors, i.e.:
The First Instance Court erred by not revok­
ing the prior Judgment of case KPE2011-0846,
when it is alleged under Rule 49.2, fraud to the
3 See, Resolution, Attachment 86 of the Appendix of the ap­
peal, page 1346.

App. 10a
Court and False representation because these al­
legations of fraud to the Court do not require dis­
cretion of the Court, or jurisdictional term.
Not granting the discovery of evidence vio­
lates the constitutional provisions of PR and USA
in a fair judgment under Rule 49.2 of the Rules of
Civil Procedure by not considering the allegations
in the complaint that are not supported and with
overwhelming evidence. Constitutional Violation.
The religious discrimination is prohibited by
the federal laws of the United States of America,
(USA), who grant the Hill-Burton loans, perpetual
nature, and HUD (Housing and Urban Develop­
ment) of modernization of Hospitals, in addition to
the Medicare and Medicaid contracts, and other
Hospital Modernization loans.
The Court erred by not considering that the
Hospital Espanol de Auxilio Mutuo (HEAM) had
evidence letters from the Federal Department of
Health since 1997, that they could not discrimi­
nate due to the commitment of the loans for fed­
eral guarantee, and they did so through a religious
Protocol that is maintained clandestine, outside
the bylaws. This protocol was only sent to the Ob­
stetrician Gynecologist.
The Honorable FIC erred when it did not re­
voke the Judgment (KPE2011-0846), by not con­
sidering the lack of sincerity of the owners of
HEAM and the medical directive to revoke the
prior judgment (KPE2011-0846).
The Court erred by accepting the Res Judi­
cata Philosophy if fraud to the Court was

App. 11a
committed and/or false representation in addition
that case KPE2011-0846 was a preliminary in­
junction and is not considered Res Judicata.
As we stated previously, on August 18, 2017, we
issued a Resolution in which we accepted the appeal,
because it was a review of a Judgment. In turn, on Au­
gust 24, 2017, the appellants filed the Allegation of the
Appellee. With the benefit of the briefs of the parties,
we proceed to state the applicable law.
II.
A.
The Puerto Rico Civil Code governs one of the
principles of judicial certainty and procedural order
that we know as Res Judicata. Presidential v. Transcaribe, 186 DPR 263, 273 (2012); Feliciano Ruiz v. Al­
fonso Develop. Corp., 96 DPR 108, 114 (1968). Said
doctrine is found regulated in Article 1204 of the
Puerto Rico Civil Code, 31 LPRA sec. 3343, and in Ar­
ticle 421 of the Civil Processing Code, 32 LPRA sec.
1793. This precept responds to the interest of the State
to end litigations, so that judicial matters are not pro­
longed and a citizen is not submitted to the annoy­
ances of litigating the same case. Presidential v.
Transcaribe, supra, pages 273-274; Mendez v. Fundacion, 165 DPR 253, 267 (2005); Pagan Hernandez v.
U.P.R., 107 DPR 720, 732 (1978). Thus reiterated by
the Supreme Court of Puerto Rico in Worldwide Food
Dis., Inc. v. Colon et al, 133 DPR 827, 833-834 (1993),
when it stated the following:

App. 12a
With said doctrine the purpose is to put an end to
litigations after they have been adjudicated in a
definite manner by the courts and, in this way, en­
sure the certainty and safety of the rights declared
through a judicial resolution to avoid additional
expenses for the State and litigants.
For the Res Judicata defense to proceed it is re­
quired for a prior final judgment to exist, in which “the
most perfect identities concur among issues, the cases,
the persons of the litigants, and their capacity”. Art.
1204 of the Civil Code supra; Presidential v. Transcaribe, supra, page 274; Mendez v. Fundacion, supra; Autoridad de Acueductos v. Reyes, 77 DPR 10, 14-16
(1954). Silva v. Doe, 75 DPR 209, 214 (1953); Camacho
v. Iglesia Catolica, 72 DPR 353 (1951); Municipio v.
Rios, 61 DPR 102, 105 (1942). The purpose of the doc­
trine is to provide certainty and security of the rights
declared through judicial resolution so that the parties
in a litigation avoid incurring in additional expenses.
Presidential v. Transcaribe, supra, pages 273-274;
Worldwide Foods Dis., Inc. v. Colon, et al, supra. It has
been reiterated that said judicial figure impedes that
issues are litigated again that were or that could have
been litigated and that were or that could have been
resolved in the prior litigation. In sum, it avoids com­
plaints being litigated ad infinitum. Parrilla v. Rodri­
guez, 163 DPR 263, 268 (2004); Worldwide Food Dis„
Inc. v. Colon et al, supra.

App. 13a
B.
Rule 49.2 of Civil Procedure, 32 LPRA Ap. V R.
49.2, authorizes the Court to release a party from a
judgment, order, or proceeding due to several grounds:
(a) error, inadvertence, surprise, or excusable negli­
gence; (b) discovery of essential evidence that, notwith­
standing a due diligence, it could not be discovered on
time to request a new trial according to Rule 48; (c)
fraud, false representation or other improper conduct
from an adverse party; (d) nullification of the judg­
ment; (e) the judgment has been satisfied or waived renunciada; and (f) any other reason that justified the
granting of a remedy against the effects of a judgment.
When invoking any of the clauses included in Rule
49.2 of Civil Procedure, supra, it can be demanded that
evidence is presented to support the allegation and
thus an evidentiary hearing be required. De Jesus Vinas v. Gonzalez Lugo, 170 D.P.R. 499, 513 (2007). How­
ever, it is not obligatory that in all the cases in which
a motion is filed under Rule 49.2 of Civil Procedure,
supra, a hearing is held, especially if from the face of
the motion it is evident that it lacks merit. Only when
valid reasons are alleged that demand presenting evi­
dence to support them, does the hearing have to be
held. Pardo u. Sucn. Stella, 145 DPR 816, 832 (1998);
Ortiz Serrano v. Ortiz Diaz, 106 DPR 445, 449-450
(1977).
Even though Rule 49.2 of Civil Procedure, Supra,
is liberally interpreted, the Supreme Court of Puerto
Rico has stated that it does not constitute a “master

App. 14a
key” to reopen controversies and must not be used as a
substitute of review remedy or a reconsideration mo­
tion. Vazquez v. Lopez, 160 D.P.R. 714, 726 (2003). (Our
emphasis). The determination of granting the nullity
of a judgment is confined to the discretion of the First
Instance Court. Garriga Gordils u. Maldonado Colon,
109 DPR 817, 822 (1980); Fine Art Wallpaper v. Wolff,
102 DPR 451, 458 (1974).
In turn, the Supreme Court of Puerto Rico stated
that Rule 49.2, supra, must not be used as a substitute
to indirectly extend the terms to go on appeal without
going against the stability and certainty of the judicial
proceedings in our jurisdiction. Reyes u. E.L.A. et al,
155 DPR 799,811 (2001). Likewise, the Supreme Court
of Puerto Rico stated that the motion to vacate the
judgment is not available to correct errors of law, or er­
rors of appreciation, or valorization of the evidence.
These are fundamental for the reconsideration or the
appeal of the judgment, but not the nullification. Gar­
cia Colon et al v. Sucn. Gonzalez, 178 DPR 527, 542543 (2010).
In Pardo v. Sucn. Stella, supra, pages 824-826, the
Supreme Court of Puerto Rico explored the concept of
the nullification of judgment under an allegation of
fraud to the court. Regarding the matter, the following
was stated:
[. . . ] If fraud to the court is alleged, it can be
presented in a separate case, in which case the
term of six months that provide the rule to file a
motion to vacate does not apply.

App. 15a
Now, an independent action for nullification of
judgment based on fraud to the court, only in­
cludes actions whose effect or intention is be­
smirch the court as such, or that is perpetuated by
officers of the court, so that the judicial apparatus
cannot perform as usual its impartial labor of
judging the cases before it for adjudication. Munic­
ipality of Coamo v. Tribunal Superior, supra, 99
DPR 932, 939 (1971). The false allegations that
have been included in a complaint per se do not
constitute grounds to conclude there was fraud to
the court. Rodriguez v. Tribunal Superior, 102
DPR 290, 292 (1974).
An action on fraud to the court has to state in
detail the circumstances which constitute it. The
mere fact of alleging there was fraud does not con­
stitute one of the circumstances that, pursuant to
Rule 49.2, supra, allow the vacating of a judgment.
The fraud is never assumed. This means that the
petitioner has proven with reasonable certainty,
meaning, with preponderance of the evidence that
satisfies the judgment of the Trier. (Citations omit­
ted).
[...]

An independent action on fraud to the court
should only be filed in those cases in which the fa­
tal term of six (6) months has expired and the cir­
cumstances are such that the court can reasonably
conclude that maintaining the judgment will con­
stitute a grave injustice against the party that has
not been negligent in the processing of the case
and that, in addition, has a good defense on the
merits. (Citations omitted).

App. 16a
In Municipio de Coamo v. Tribunal Superior, su­
pra, on pages 939-940, the Supreme Court, citing Mar­
tinez v. Tribunal, 83 DPR 358 (1961), stated that fraud
to the court is: “[...] the preparation, the use and the
presentation in the hearing of the case of false evi­
dence obtained through the adverse party through
bribes and the inducing of perjury.” Id. On the contrary,
the false allegations per se in a complaint do not con­
stitute grounds to conclude there was fraud to the
court. Rodriguez u. Tribunal Superior, 102 DPR 290,
292 (1974) (Per Curiam). Likewise, that a witness
while under oath, even if it is the party, does not con­
stitute fraud to the court. Municipio de Coamo v. Tri­
bunal Superior, supra.
Last, a judgment becomes final and enforceable
when the term has gone by to appeal without this hav­
ing been done, or when concluding the appeal process.
Rivera v. Algarin 159 D.P.R. 482, 489 (2003).
Together with the principles previously stated, we
proceed to resolve if this Court has jurisdiction to tend
to the appeal remedy before our consideration.
III.
In its first finding of error, the appellant stated
that the first court erred when it did not revoke the
Judgment in case K PE2011-0846. It argued that its
allegation of fraud and false representation under Rule
49.2 of Civil Procedure, supra, turned the Judgment in
case K PE2011-0846 null and, therefore, the determi­
nation of the FIC was not discretional, and it was not

App. 17a
tied to the term of six (6) months established by Rule
49.2 of Civil Procedure, supra. The appellant is not cor­
rect in his argument.
We have carefully reviewed the instant case rec­
ords and we agree with the first court regarding that
the supposedly new evidence presented by the appel­
lant supporting his allegation of fraud is not sufficient
for the first court to declare null the Judgment issued
on March 16, 2014 and that, in fact, was confirmed by
this Court, through a Judgment issued on August 29,
2014. According to the legal framework stated before,
fraud is not assumed and, therefore, must be proven by
petitioner of the request for nullification with prepon­
derance of the evidence, meaning, with reasonable cer­
tainty. In the instant case, the first court tended to the
arguments of both captioned parties and issued its de­
termination, after application of the law to the facts of
this controversy. By proceeding in this manner, the FIC
analyzed said arguments and concluded that no basis
arose to conclude that the judgment impeached had de­
fects for nullification or fraud. The error alleged by the
appellant was not committed.
Due to its relevance to the instant case, we will
discuss the sixth finding of error alleged by the appel­
lant. In essence, he alleged that the FIC erred when
applying the doctrine of Res Judicata. He alleged that
said doctrine must not be applied when fraud and false
representation is alleged. Likewise, the appellant
stated that said doctrine did not apply, since the case
which Judgment attempts to leave without effect was
a preliminary injunction, there was not discovery of

App. 18a
evidence and was resolved summarily. The appellant is
also not correct in his arguments.
In first place, it is indispensable to state that con­
trary to what is alleged by the appellant, the determi­
nation in case K PE2011-0846 did not constitute
merely a preliminary injunction, neither is it about an
interlocutory ruling.. The injunction was dismissed by
this Court, through a Judgment issued on March 27,
2012 (KLAN201101585), and the case was returned for
the continuation of the ordinary process. As we stated
previously, the primary court issued a Judgment, sum­
marily, on March 16, 2014, that was the subject of an
appeal filed by the appellant (KLAN201400743). A
Judgment issued on August 29, 2014, another Panel of
the Court confirmed the Judgment appealed. There­
fore, the Judgment in the prior case constitutes a final
and firm ruling.
In second place, contrary to what is stated by the
appellant, in the previous case (k PE2011-1585), the
same parties litigated in the same capacity, in addition
that the appellant filed the same cause of action and
the same allegations. Therefore, we are forced to con­
clude that the FIC did not make an error when apply­
ing the Res Judicata doctrine. The sixth error alleged
by the appellant was also not committed.
Due to the result thus reached, regarding the ap­
plication of the res judicata doctrine, it is not necessary
that we discuss the remaining findings of error alleged
by the appellant, since said errors result repetitive and
patently without merit. The appellant simply did not

App. 19a
present sufficient evidence to support what was al­
leged. Regarding this matter, it needs to be stated that
it is a governing principle and a norm firmly estab­
lished in which mere allegations and theories do not
constitute evidence. U.P.R. Aguadilla v. Lorenzo Her­
nandez, 184 DPR 1001, 1013 (2012), citing Pereira
Suarez v. Jta. Dir. Cond., 182 DPR 485, 509-510 (2011)
and Alberty v. Bco. Gub. De Fomento, 149 DPR 655, 671
(1999). Due to the aforementioned, we confirm the ap­
pealed judgment.
IV.
Due to the all the aforementioned considerations,
the appealed Judgment is confirmed.
Agreed and ordered by the Court, and certified by
the Clerk of the Court of Appeals.
[Illegible Signature]
Lilia M. Oquendo Soils, Esq.
Clerk of the Court of Appeals
[illegible signature]
[Seal of the Court of Appeals]

App. 20a
CERTIFIED TRANSLATION
COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
SAN JUAN SUPERIOR COURT
DR. SAMUEL DAVID
SILVA-RAMIREZ
Plaintiff

CIVIL NO.:
K PE2015-3721 R
(Courtroom 806)
RE:

v.
HOSPITAL AUXILIO
MUTUO, INC. et al
Defendants

PRELIMINARY
INJUNCTION;
DECLARATORY
JUDGMENT;
DAMAGES

JUDGMENT
I.

PROCEDURAL BACKGROUND

On December 15, 2015, doctor Samuel D. SilvaRamirez (hereinafter, “the plaintiff” or “Dr. SilvaRamfrez”) filed a pro se Complaint in the abovecaptioned case, along with a petition for a preliminary
injunction against Hospital Auxilio Mutuo de Puerto
Rico, Inc. (hereinafter “HEAM” or “Hospital”), Dr. Jose
A. Isado-Zardon (Medical Director) and his wife. In this
motion, Dr. Silva-Ramirez requested the relief from the
Judgment issued in Civil Case No. KPE2011-0846, al­
leging newly discovered evidence and fraud.
On February 17,20161, the Court of Extraordinary
Appeals handled the temporary injunction phase in
1 Notified on February 29, 2016.

App. 21a
this case and issued a Partial Judgment and Order dis­
missing the motion for injunctive relief filed by Dr.
Silva-Ramfrez by finding it to be legally inadmissible.
Consequently, the case was referred to the ordinary
proceeding currently before us.
Upon referral of the case for ordinary proceeding,
Dr. Silva-Ramfrez filed an Amended Complaint outlin­
ing the same claims previously made in the Complaint.
On May 4, 2016, the defendant filed a dispositive
motion stating that this Court lacks jurisdiction on the
subject and, therefore, the res judicata doctrine is ap­
plicable in this case, given that the facts and the claims
raised by the plaintiff were duly adjudicated in a final
and enforceable manner in Civil Case No. KPE20110846. A copy of the Partial Judgment and the Final
Judgment entered in case number K PE2011-0549, as
well as a copy of the Judgment by the Court of Appeals
reversing the Partial Judgment and a copy of a Deci­
sion Dismissing a request for a new trial and a release
from judgment were attached to the Motion.
This Court issued an Order on May 11, 2016
whereby the Court granted the plaintiff twenty (2)
days to oppose the Motion to Dismiss filed by the
defendant. The defendant filed his opposition to the
Motion to Dismiss on May 27, 2016.
With the benefit of the pleadings and the docu­
ments filed by the parties, we proceed to decide the
case:

App. 22a
II.

FACTUAL BACKGROUND

The judicial determinations made in case
K PE2011-0846, a copy of which is found in the case
files, shows the following:
1. Dr. Silva-Ramfrez was stripped of his appoint­
ment and his clinical privileges to practice gynecology
and obstetrics at HEAM after a disciplinary process in­
itiated by the HEAM’s medical authorities in accord­
ance with applicable HEAM Medical Faculty Bylaws.
2. Dissatisfied with the disciplinary process
initiated against him, on March 4, 2011, Dr. SilvaRamfrez filed a complaint (Civil Case No. KPE20110846) along with a request for preliminary injunction
against HEAM and against Dr. Jose Isado-Zardon
(Medical Director) and his wife. Dr. Silva-Ramfrez re­
quested that a declaratory judgment be entered stat­
ing that HEAM had stripped him of his appointment
to the HEAM Medical Faculty, as well as of his clinical
privileges to practice gynecology and obstetrics at said
institution, in an illegal and discriminatory manner,
due to his religious beliefs. Meanwhile, as an injunctive
relief, Dr. Silva-Ramfrez requested that his clinical
privileges be restored and that the notice issued by
HEAM to the National Practitioners’ Data Bank
(N.P.D.B.) regarding the result of the disciplinary ac­
tion taken by the institution’s medical authorities
against him be withdrawn. Lastly, Dr. Silva-Ramfrez
sought compensation for alleged damages for a multi­
million sum.

App. 23a
3. After the required hearings were held, on Oc­
tober 27,2011, Hon. Judge Angel R. Pagan-Ocasio, who
participated in the initial stage of the preliminary in­
junction in case number K PE2011-0846, entered a
Partial Judgment in favor of Dr. Silva-Ramlrez. As
shown by the Partial Judgment, it was limited to re­
storing Dr. Silva-Ramfrez’s privileges and withdraw­
ing the notice issued by HEAM to the N.P.D.B.
However, said Partial Judgment expressly states that
“it had not been proven that the plaintiff’s religious
beliefs were a determining factor for the decision to
suspend his privileges at Hospital Auxilio Mutuo”
(p.18; CFI Partial Judgment; KPE2011-0846).
4. Dissatisfied with the Partial Judgment issued
by the Court of First Instance [CFI], HEAM appealed
to the Court of Appeals (hereinafter “CA”). The CA en­
tered Judgment2 revoking the Partial Judgment previ­
ously entered by the CFI. According to the CA’s
Judgment, the suspension of Dr. Silva-Ramirez’s clini­
cal privileges took place after HEAM conducted an in­
ternal disciplinary process in absolute compliance with
the provisions of the Medical Faculty Bylaws. The CA
adjudicated Dr. Silva’s claim that he had not been pro­
vided with an adequate discovery process by ruling
that “Dr. Silva was provided all the necessary docu­
ments for his defense (see p. 30; CA Judgment;
KLAN201101585). On the other hand, it should be
noted that the allegations of religious discrimination

2 Delivered on March 27, 2012; notified on March 29, 2012.

App. 24a
were also manifestly rejected by the appellate court
(see pp.39-40; CA Decision; KLAN201101585).
5. In view of the Decision issued by the CA re­
voking the Partial Judgment issued by the CFI, Dr.
Silva-Ramxrez opted to file a petition for Writ of Certi­
orari before the Supreme Court of Puerto Rico (herein­
after “TSPR,” [for its Spanish acronym]). Said court
decided not to issue the writ and, consequently, the
case was remanded to the CFI to conduct the relevant
procedures of the ordinary proceeding.
6. Once the case had been sent back to the CFI
to conduct the relevant procedures of the ordinary pro­
ceeding, HEAM filed a Motion for Summary Judgment.
Facing the opposition of the plaintiff, the CFI granted
the motion on the grounds that there were no unre­
solved issues in the suit since the core facts had been
adjudicated by the CA and, therefore, the claims made
in the complaint had been resolved based on their mer­
its.
7. On March 17,2014, the CFI summarily dis­
missed Civil Case No. KPE2011-0846. Dissatisfied
with the dismissal, Dr. Silva-Ramfrez requested a re­
consideration, which was denied.
8. In a Judgment issued on August 29, 20143, the
CA confirmed the decision of the CFI and ruled that
the Court of First Instance acted correctly by deciding
the case summarily, given that the evidence contained
in the case file regarding the core facts of the case was
3 Notified on September 11, 2014.

App. 25a
strong and sufficient to sustain the appealed summary
judgment (see p. 41, CA Judgment; KLAN201400743).
9. Since Dr. Silva-Ramirez did not appeal the de­
cision of the CA panel (KLAN201400743) before the
TSPR, the judgment of dismissal became final and en­
forceable.
10. Approximately one (1) year and a half after
the Judgment of the CA was issued, under appeal
number K LAN2014-00743, Dr. Silva-Ramirez filed4
a Motion Requesting Relief of Judgment in case
KPE2011-0846, which was Dismissed due to lack of
jurisdiction because it was filed after the six (6) month term stipulated under Rule 49.2 of the Rules of
Civil Procedure, 32 L.P.R.A. App. Ill, R. 49.2.
11. On December 15, 2015, Dr. Silva-Ramirez
filed the complaint in the above-captioned case, along
with a petition for preliminary injunction against
HEAM and Dr. Jose A. Isado-Zardon and his wife. In
said complaint and petition for preliminary injunction,
Dr. Silva-Ramirez requested the relief of the Judgment
entered in Civil Case No. KPE2011-0846, as well as the
withdrawal of the notice issued by HEAM to the
N.P.D.B., and the restitution of his clinical privileges to
practice gynecology and obstetrics at HEAM.
12. Hon. Judge Aileen M. Navas-Auger, who
heard the initial stage of the present case, dismissed
the motion for injunctive relief by means of a Partial
Judgment and Order issued on February 17, 2016, on
4 Filed on September 14, 2015.

App. 26a
the grounds that Dr. Silva-Ramlrez’s appeal was le­
gally inadmissible because the Judgment for which re­
lief was being requested stems from a case that was
adjudicated on its merits; therefore, said Judgment
had become final and enforceable.
III. APPLICABLE LAW
A. Origin of the Independent Action for
Relief Due to Nullity of Judgment
The first two paragraphs of Rule 49.2 of the Rules
of Civil Procedure, 32 L.P.R.A., App. Ill, R. 49.2, pro­
vide the following with regard to the relief from judg­
ment:
32A L.P.R.A. § Rule 49.2. Mistakes; inadvert­
ence; surprise; excusable neglect; newly dis­
covered evidence, fraud, etc.
On motion and upon such terms as are just,
the court may relieve a party or his legal repre­
sentative from a judgment, order or proceeding for
the following reasons:
(1) Mistake, inadvertence, surprise or ex­
cusable neglect;
(2) Discovery of material evidence which,
despite due diligence, could not be discovered in
time to move for a new trial under Rule 48;
(3) Fraud (whether heretofore denominated
intrinsic or extrinsic), misrepresentation or other
misconduct of an adverse party;
(4) The judgment is void;

App. 27a
(5) The judgment has been satisfied, re­
leased or discharged, or a prior judgment upon
which it is based has been reversed or otherwise
vacated, or it is no longer equitable that the judg­
ment should have prospective application; or
(6) Any other reason justifying relief from
the operation of the judgment.
The provisions of this rule shall not be appli­
cable to judgments entered in divorce lawsuits, un­
less the motion is based on subparagraphs (3) or
(4). The motion shall be filed within a reasonable
term, but in no event after six (6) months of the
recording of the judgment or order or after the pro­
cedure has been conducted. A motion under Rule
49.2 shall not affect the purpose of a judgment, nor
shall it suspend its effects. This rule does not limit
the power of the court to:
(a) Hear an independent suit in order to re­
lieve a party from a judgment, order, or
proceeding: (Emphasis provided)
(b) Grant a remedy to a party that really
would not have been summoned, and
(c) Revoke a judgment due to fraud to the
court. (Emphasis provided)
The first paragraph of Rule 49.2, supra, provides
for relief from the effects of the judgment by means of
a petition filed in the same case within six months (180
days) from notice of judgment, based on the six causes
indicated in subparagraphs (1) to (6) of Rule 49.2. The
last two subparagraphs of the second paragraph of
Rule 49.2 refer to two particular cases to which the six

App. 28a
(6)-month term does not apply, that is, when a party
really would not have been summoned, subparagraph
(b), and due to fraud to the Court, subparagraph (c).
Also, subparagraph (a) of said paragraph reaffirms the
discretion of the Court to grant relief from the effects
of a judgment by filing an independent lawsuit, even
after the six (6)-month period has passed, in the situa­
tions discussed below, thus leaving the independent
suit for nullity of judgment expressly considered in
Rule 49.2.
As for the independent action for relief from judg­
ment in Figueroa v. Banco de San Juan, 108 D.RR.
680, 687-689 (1979), the Supreme Court stated:
We agreed with the court of first instance that
the res judicata doctrine prevents the appellee
from once again litigating the matters that he
brought forth or that they may have brought forth
in the request for a suspension of judgment. Mer­
cado Riera v. Mercado Riera, 100 D.RR. 940
(1972); Gonzalez v. Mendez et al., 15 DPR 701
(1909). In addition, he may not use the mechanism
of an independent action in order to challenge the
validity of the judgment and the proceedings in
civil case 75-4206 as erroneous, nor to raise sub­
stantive matters that should have been brought
forth as affirmative defenses during the trial. Said
action is not intended to replace the review proce­
dure or to provide an additional remedy against
an erroneous judgment. Gonzalez v. Chavez. 103
DPR 474 (1975); Rodriguez v. Tribunal Supe­
rior, 102 DPR 290 (1974); Pares Inc. v. Galdn,
98 D.P.R. 772 (1970); E.L.A. v. Tribunal Supe­
rior, 86 D.P.R. 692 (1962). If this was the case, the

App. 29a
independent case for a suspension of judgment
would constitute a mere procedural mechanism to
indirectly extend the review term while under­
mining the fundamental interest in the stability
and accuracy of legal proceedings. Rule 49.2 safe­
guards this fundamental interest by establishing
a six-month deadline for requesting the suspen­
sion. by establishing the reasons in precise terms,
and bv excluding judicial error, as opposed to mis­
takes made bv the party, as a basis for the remedy.
Banco Popular v. Tribunal Superior. 82 DPR 242
(1961). (Emphasis added.)
However, the court’s inherent authority to
nullify at any moment a void or fraudulently ob­
tained judgment, be it at its own request or at the
request of the interested or affected party. Calde­
ron Molina v. Federal Land Bank, 89 D.P.R.
704 (1963); Martinez v. Tribunal Superior, 83
D.P.R. 358 (1961); Sucn. Rosario v. Sucn. Cortijo,
83 D.P.R. 678 (1961); Roca v. Thomson, 77 D.P.R.
419 (1954). This inherent power is acknowledged
by Rule 49.2, about which it states the following:
. . . This rule does not limit the court’s power
to (a) hear an independent case for the pur­
poses of suspending part of a judgment, order,
or procedure; (b) grant a remedy to a party
that would not have actually been given; and
(c) suspend a judgment due to fraud.
The broad and comprehensive framework of
remedies provided by Rule 49.2 considerably re­
duces the use of this independent action to cases
in which the six month deadline has elapsed and
the circumstances are such that the court can

App. 30a
reasonably conclude that sustaining the judgment
would constitute a grave injustice against a party
that has not been negligent in their case and that
also has a good defense. (Emphasis added.)
The exercise of the independent action in
cases with void judgments is generally accepted
because these are inexistent. Calderon Molina v.
Federal Land Bank, 89 D.P.R. 704, 708; 7 Moore,
Federal Practice, sec. 60.37(1), page 621; Wright
& Miller, 11 Federal Practice and Procedure,
238. A judgment is void when it has been issued
without jurisdiction over the subject-matter or the
parties, or, if it somehow infringes on the due pro­
cess of law. E.L.A. v. Tribunal Superior, supra,
Rodriguez v. Albizu, 76 D.P.R. 631 (1954). The
use of the independent action is acceptable against
a judgment obtained through fraud, error, or acci­
dent, and when a party has been unable to present
their defenses due to the other party’s schemes
and machinations, as long as they have not been
negligent in their case or committed a fault. Olivera v. Grace, 122 P. 2d 564. Moore, op. cit., on
pages 621-627; Wright & Miller, op. cit., pages
639-645. (Emphasis added.)
Expanding on the above, in Rivera v. Jaume, 157
D.P.R. 562, 572-575 (2002), the Supreme Court stated:
Rule 49.2(4) provides a procedural vehicle for
a party to be able to request the suspension of a
judgment against it for one of the reasons estab­
lished by the rule itself, as long as said action is
presented within the six (6) months following the
registry of the judgment. However, even after the
six (6) month deadline has elapsed, the rule itself

App. 31a
acknowledges a court’s power to hear an independ­
ent case for the purposes of relieving a party from
a judgment, order, or proceeding; granting a rem­
edy to a party that would not have actually been
given: and to suspend a judgment due to fraud.
Rule 49.2, supra. See, also, Figueroa v. Banco de
San Juan, 108 D.P.R. 680, 688 (1979). (Emphasis
in source.)
Generally, this type of action is allowed when
the judgment is void, because it is inexistent. This
occurs when the judgment has been issued with­
out jurisdiction over the subject-matter or the par­
ties in a case, among other cases. We have also
considered that, in the context of Rule 49.2, a judg­
ment is void when the court has acted in a manner
inconsistent with the due process of law. See
E.L.A. v. Tribunal Superior. 80 D.RR. 692 (1962).
(Emphasis in source.)
However, the acknowledgement of this action
is not a master key for nullifying judgments that
have been issued validly. The reservation of the
right to the independent action is predicated in
the fundamental justice of the claim. See Alicea
Alvarez v. Valle Bello. Ill D.RR. 847, 853 (1982).
The broad and comprehensive framework of rem­
edies provided by Rule 49.2 considerably reduces
the use of this independent action to cases in
which the six month deadline has elapsed and the
circumstances are such that the court can reason­
ably conclude that sustaining the judgment would
constitute a grave injustice against a party that
has not been negligent in their case and that also
has a good defense. Figueroa v. Banco de San Juan.
supra, page 689. (Emphasis in source.)

App. 32a
On the other hand, as for the independent action
for the suspension or nullification of a judgment simi­
larly recognized in the federal jurisdiction, the wellknown treatise by Wright, Miller & Kane, Federal
Practice and Procedure 2d, sec. 2868, pages 397399, states the following when discussing its require­
ments:
The requirements of established doctrine for
the independent action in equity were succinctly
summarized by the Eighth Circuit long before the
Adoption of the Civil Rules:
The indispensable elements of such a cause
are (1) a judgment which ought not, in equity and
good conscience, to be enforced; (2) a good defense
to the alleged cause of action on which the judg­
ment is founded; (3) fraud, accident, or mistake
which prevented the defendant in the judgment
from obtaining the benefit of his defense; (4) the
absence of fault or negligence on the part of the
defendant: and (5) the absence of any adequate
remedy at law. (Emphasis added.)
Resort to an independent action may be had
only rarely, and then only under unusual circum­
stances. It is not the function of an independent
action to relitigate issues finally determined in an­
other action between the same parties. It is not a
remedy for inadvertence or oversight by the losing
party in the original action, nor will it lie on behalf
of a party who was himself at fault. (Emphasis
added.)
Based on these principles, in United States
v. Beeeerlv. 118 S. Ct. 1862, 524 U.S. 38, 141

App. 33a
L.Ed.2d 32 (1998), the United States Supreme
Court reiterated the rule that independent action
would only be considered if what was ruled in the
judgment is “manifestly unconscionable”, as fol­
lows:
Independent actions must, if Rule 60(b) is to
be interpreted as a coherent whole, be reserved for
those cases of “injustices which, in certain in­
stances, are deemed sufficiently gross to demand
a departure” from rigid adherence to the doctrine
of res judicata. Hazel-Atlas Glass Co. v. HartfordEmnire Co.. 322 U.S. 238, 244 (1944).
. . . [A]n independent action should be availa­
ble only to prevent a grave miscarriage of justice.
Based on the above, an independent action
would not simply be appropriate in grave cases,
but it would also have to comply with the elements
discussed above. In addition, they must comply
with specific allegations related to fraud, mistake,
accident, or fatal defects that make the challenged
judgment void or voidable.
On the other hand, as for the specific cases of
fraud, the Supreme Court expressed in Pardo v.
Sucn. Stella, 145 D.P.R. 816, 824-826 (1998):
An independent action to declare a judgment
void based on fraud only includes actions whose
effects or intent was to sully the court, or that was
perpetrated by officials of the court, in such a way
that the legal system cannot conduct its impartial
work of judging the cases with which it is pre­
sented for adjudication. Municipio de Coamo v.
Tribunal Superior, 99 D.P.R. 932, 939 (1971).

App. 34a
False allegations included in a lawsuit per se do
not constitute grounds for concluding that there
was fraud at court. Rodriguez v. Tribunal Su­
perior, 102 D.P.R. 290, 292 (1974).
An action due to fraud must present in detail
the circumstances that constitute the fraud. The
mere fact of alleging that fraud took place does not
constitute one of the circumstances that, based on
Rule 49.2, supra, would allow for the suspension
of a judgment. Correa v. Marcano, 139 D.P.R.
856 (1996); Davila v. Hosp. San Miguel, Inc.,
117 D.P.R. 680 (1979). Fraud is never presumed.
This means that it must be proven by the peti­
tioner with a reasonable prospect of certainty, that
is, with a preponderance of the evidence satisfying
the judge’s conscience. Gonzalez v. Quintana,
145 D.P.R. 463 (1998); De Jesus Diaz v. Carrero,
112 D.P.R. 631 (1982); Canales v. Pan American,
112 D.P.R. 329 (1982); Garcia Lopez v. Mendez
Garcia, 102 D.P.R. 383 (1974); Carrasquillo v.
Lippitt & Simonpietri, Inc., 98 D.P.R. 659
(1970).
On the other hand, we have established that
when a court examines a request for the suspen­
sion of a judgment under Rule 49.2 of the Code of
Civil Procedure, supra, it must consider certain
criteria in order to safeguard the rights of the
parties involved in the case. The judge must be
aware of the existence of a valid defense to oppose
for the petitioner’s claim, the time elapsed be­
tween the judgment and the request for suspen­
sion, the damages the opposing party would suffer
if the suspension of judgment is granted, and the
damages suffered by the moving party should the

App. 35a
requested remedy not be granted. Neptune Pack­
ing Corp. v. Wackenhut Corp., 120 D.P.R. 283,
294 (1988); Murphy Lugo v. Atl. So. Insurance
Co., 91 D.P.R. 335 (1964).
An independent action due to fraud must only
be presented in such cases where the six (6) month
deadline has elapsed and the circumstances are
such that the court can reasonably conclude that
sustaining the judgment would constitute a grave
injustice against a party that has not been negli­
gent in their case and that also has a good defense.
Figueroa v. Banco de San Juan, supra, page
688.
Even though Rule 49.2 of the Code of Civil
Procedure, supra, must be interpreted in a liberal
manner, the interest of seeing the cases in light of
their merits cannot always prevail over the
equally just interest of preventing the congestion
of schedules, of resolving cases swiftly, of eliminat­
ing uncertainty and preventing unnecessary de­
lays in the legal proceedings, thereby promoting
the just, swift, and economical resolution of the
controversies. Correa v. Marcano, supra, page
861, Davila v. Hosp. San Miguel, Inc., supra,
page 818.
Fraud in court, under said rule, refers to unu­
sual cases that involve more than damages to a
particular disputant. The courts have rejected in­
voking this concept in cases in which the alleged
fraudulent act, should it exist, took place between
the parties in the case and had no direct effect
on the integrity of the legal process. 11 Wright,
Miller, and Kane, Federal Practice and

App. 36a
Procedure; Civil 2d Sec. 2870 (1995). In Municipio de Coamo v. Tribunal Superior, supra,
pages 939-940, we pointed out that fraud in court
must cover only those types of fraud whose intent
is to sully the court as such, for example, those per­
petrated by officials of the court, the preparation,
use, and presentation in the case’s hearing of false
evidence obtained by the opposing party or ob­
tained through bribery and instigating perjury, or
when the party against which the judgment was
issued was never properly summoned.
IV. CONCLUSION
In conformance with the laws discussed above in
this case, the requirements for suspending or declaring
void the judgment in case KPE2011-0846 have not
been met.
Therefore, based on the allegations contained in
the lawsuit and the documentation attached to it, it
does not result evident why the letter that is alleged
to constitute new evidence that justifies the suspen­
sion of the Judgment issued in case KPE2011-0846
was material or pertinent evidence to the adjudication
of the claim in that case. We warned that said letter,
at most, is evidence that the HEAM received some
sort of benefit under a federal law known as HillBurton, which the plaintiff argues in some of its filings
prohibits institutions that have received funding un­
der said statute from discriminating based on religious
grounds. Upon taking judicial note of the proceedings
in case K PE2011-0846, including the procedures

App. 37a
before the Appellate Court in appeal KLAN200101585,
we warned that the plaintiff here and there had al­
leged in their claims that they had been discriminated
against based on religious grounds. Said cause of ac­
tion due to discrimination was adjudicated and re­
jected based on its merits both by the Court of First
Instance and the Appellate Court. In their ruling, the
Court of First Instance and the Court of Appeals at no
moment based their determinations on the inapplica­
bility of the constitutional or statutory provisions
against religious discrimination. Therefore, even ac­
cepting it as fact, viewing the plaintiff in the most fa­
vorable way possible, that said letter is in effect new
evidence that the plaintiff did not possess or which was
not possible to discover at the time when case
KPE2011-0846 was adjudicated, it is implausible to
allege that it was essential to the adjudication of said
case.
On the other hand, the lawsuit did not present in
detail the circumstances that constituted fraud in
Court. According to the case law cited, merely alleging
that there was fraud does not constitute the circum­
stances that would allow for the suspension of a judg­
ment. Pardo v. Sucn. Stella, supra.
Therefore, having evaluated the allegations made
in the lawsuit and the documentation attached to it, no
elements justifying the suspension of judgments made
in said case, be it those made by the Court of First In­
stance or the Appellate Court, present themselves. In
addition, it is evident that this case is another attempt
by the plaintiff to relitigate matters that have been

App. 38a
tried based on their merits by various legal forums,
which is why we have determined that said part was
frivolous in presenting this action. Rule 44.1(d) of the
Code of Civil Procedure.
JUDGMENT
In light of the above, the motion filed by the de­
fendant is granted and a Judgment is issued dismiss­
ing WITH PREJUDICE the lawsuit ABOVE and
imposing on the plaintiff the payment of legal fees rea­
sonably estimated by this court to total $5,000.00, as
well as
BE IT RECORDED AND NOTICE HEREOF
BE DULY GIVEN ISSUED in San Juan,
Puerto Rico, on July 28, 2016.
Griselda Rodriguez-Collado
Assistant Secretary

[Signed]
Juan A. Frau-Escudero
Superior Court Judge

I, Juan E. Segarra, USCCI #06-067/translater, certify
that the foregoing is a true an accurate translation, to
the best of my abilities, of the document in Spanish
which I have seen.

App. 39a
[CERTIFIED
TRANSLATION]

I, Carlos Lao Davila, a Federally
certified interpreter, number
03-052, hereby certify that the
attached document is a true and
exact translation of the original

COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
JUDICIAL REGION OF SAN JUAN AND
CAGUAS V PANEL
DR. SAMUEL DAVID
SILVA RAMIREZ
Petitioner
v.
HOSPITAL ESPANOL
AUXILIO MUTUO
DE PUERTO RICO,
INC., SOCIEDAD
ESPANOLA DE
AUXILIO MUTUO Y
BENEFICIENCIA DE
PUERTO RICO, INC.;
SOCIEDAD ESPA­
NOLA DE AUXILIO
MUTUO INC.,
DR. JOSE ISADO
ZARDONAND THE
CONJUGAL PART­
NERSHIP COM­
PRISED BY HIM
AND MRS. DIANA
VIGIL VIGIL
______ Appellee______

Certiorari
Coming from
the First In­
stance Court,
KLCE201701318 Ponce Part
Case No.:
K PE200153721
Re:
Rule 49.2,
Fraud and
False Repre­
sentation

App. 40a
Panel comprised by its president, Judge Sanchez Ra­
mos, Judge Soroeta Kodesh, and Judge Romero Garcia.
RESOLUTION
In San Juan, Puerto Rico, March 11, 2019.
The “Reconsideration” filed by the petitioner, Dr.
Samuel Silva Ramirez was considered, and DENIED.
Agreed and ordered by the Court, and certified by
the Clerk of the Court of Appeals.
[Illegible Signature]
Lilia M. Oquendo Solfs, Esq.
Clerk of the Court of Appeals
[Seal of the Puerto Rico Court of Appeals]
Identification Number
RES2019

App. 41a
[CERTIFIED
TRANSLATION]

I, Carlos Lao Davila, a Federally
certified interpreter, number
03-052, hereby certify that the
attached document is a true and
exact translation of the original

COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
JUDICIAL REGION OF SAN JUAN AND
CAGUAS V PANEL
DR. SAMUEL DAVID
SILVA RAMIREZ
Petitioner
v.
HOSPITAL ESPANOL
AUXILIO MUTUO
DE PUERTO RICO,
INC., SOCIEDAD
ESPANOLA DE
AUXILIO MUTUO Y
BENEFICIENCIA DE
PUERTO RICO, INC.;
SOCIEDAD ESPA­
NOLA DE AUXILIO
MUTUO INC.,
DR. JOSE ISADO
ZARDONAND THE
CONJUGAL PART­
NERSHIP COM­
PRISED BY HIM
AND MRS. DIANA
VIGIL VIGIL
_____ Appellee_____

Certiorari
Coming from
the First In­
stance Court,
KLCE201701318 Ponce Part
Case No.:
KPED0153721
Re:
Rule 49.2,
Fraud and
False Repre­
sentation

App. 42a
Panel comprised by its president, Judge Sanchez Ra­
mos, Judge Soroeta Kodesh, and Judge Romero Garcia.
RESOLUTION
In San Juan, Puerto Rico, August 28, 2017.
Having tended to the Request for Extension to File
Allegations filed on August 22, 2017, it is disposed by
Nothing To Provide due to as of this date the appealed
party filed its allegation. Taking judicial knowledge
that on August 24, 2017, the appealed party already
filed its allegation.
The Court so ruled and it is certified by the Court of
Appeals.
[Seal of the Puerto Rico Court of Appeals]
/s/ Lila M. Oquendo Solis
Atty. Lila M. Oquendo Solis
Clerk of the Court of Appeals

App. 43a
[CERTIFIED
TRANSLATION]

I, Carlos Lao Davila, a Federally
certified interpreter, number
03-052, hereby certify that the
attached document is a true and
exact translation of the original

THE SUPREME COURT OF PUERTO RICO
II COURTROOM
Samuel David
Silva Ramirez
Petitioner
v.
HOSPITAL ESPANOL
AUXILIO MUTUO
DE PUERTO RICO,
INC., SOCIEDAD
ESPANOLA DE
AUXILIO MUTUO Y
BENEFICIENCIA DE
PUERTO RICO, INC.;
SOCIEDAD ESPA­
NOLA DE AUXILIO
MUTUO INC.,
DR. JOSE ISADO
ZARD6N AND THE
CONJUGAL PART­
NERSHIP COM­
PRISED BY HIM
AND MRS. DIANA
VIGIL VIGIL
Appellee

CC-2019-0236

t

App. 44a
Dispatch Courtroom comprised by Associate Justice
Mrs. Rodriguez Rodriguez as President, Associate Jus­
tice Mr. Kolthoff Caraballo, and Associate Justice Mr.
Estrella Martinez.
RESOLUTION
In San Juan, Puerto Rico, May 10, 2019.
Having tended to the Certiorari Petition filed by
the Petitioner, it is ruled denied due to gross noncom­
pliance with the Rules of this Court.
Decided by this Court and certified by the Clerk of
the Supreme Court.
/s/ Jose Ignacio Campos Perez
Jose Ignacio Campos Perez
CLERK OF THE SUPREME COURT
Res201900039375

App. 45a
[CERTIFIED TRANSLATION]

I, Carlos Lao Davila, a Federally certified inter­
preter, number 03-052, hereby certify that the at­
tached document is a true and exact translation of
the original
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF APPEALS
JUDICIAL REGION OF SAN JUAN
SILVA RAMIREZ, SAMUEL CASE NO.
DAVID
KLCE201701318
V.
RE:
CIVIL INTERLOCUHOSPITAL ESPANOL
TORy
CERTIORARI
AUXILIO MUTUO DE PR
INC
NOTIFICATION
TO: GENERAL CLERK SAN JUAN (SUP)
PO BOX 190887
SAN JUAN
PR 00919
MONROUZEAU BONILLA, IRIS M ESQ.
IM@AMLAWFIRM.COM, TRISHA1955@
YAHOO.COM
MANZANO YATES, PEDRO J ESQ.
pmanzano@scmplex.com, pjmyl216@gmail.com
SILVA RAMIREZ, SAMUEL DAVID
234 PARIS ST PMB 1834
SAN JUAN PR 00917

App. 46a
THE UNDERSIGNED CLERK CERTIFIES AND NO­
TIFIES YOU THAT REGARDING THE: RECONSID­
ERATION - MARCH 01, 2019
THIS COURT ISSUED A RULING ON THE RECON­
SIDERATION, ON MARCH 11, 2019, OF WHICH A
COPY IS ATTACHED HERETO OR A LINK IS IN­
CLUDED:
YOU ARE ADVISED THAT BY BEING A PARTY OR
THE LEGAL REPRESENTATION IN THE CASE
SUBJECT TO THIS RECONSIDERATION RULING,
OF WHICH YOU MAY FILE AN APPEAL OR CERTI­
ORARI, PURSUANT TO THE PROCEEDING AND
THE TERM ESTABLISHED BY LAW, RULE, OR
REGULATION, I ADDRESS TO YOU THIS NOTIFI­
CATION.
I IN ADDITION CERTIFY THAT, AS OF TODAY, I
SENT A COPY OF THIS NOTIFICATION TO THE
PERSONS INDICATED ABOVE, TO THEIR AD­
DRESSES REGISTERED IN THE CASE, ACCORD­
ING TO THE APPLICABLE NORM. ON THIS SAME
DATE IT WAS FILED IN THE RECORD OF THE
CASE A COPY OF THIS NOTIFICATION.

App. 47a
IN SAN JUAN, PUERTO RICO, MARCH 13, 2019
LILAM. OQUENDO
SOLIS

By: S/ ENIBETH GARCIA
RIVERA

NAME OF THE CLERK
OF THE COURT OF
APPEALS

NAME AND SIGNATURE
OF [ILLEGIBLE]
DEPUTY CLERK
OF COURT
[Seal of the Court of Ap­
peals of Puerto Rico]

OAC1835-Court of Appeals-Notification Form

\

App. 48a
TSupreme de PR
[CERTIFIED
TRANSLATION]

I, Carlos Lao Davila, a Federally
certified interpreter, number
03-052, hereby certify that the
attached document is a true and
exact translation of the original

IN THE SUPREME COURT OF PUERTO RICO
COURTROOM I
Samuel David
Silva Ramirez
Petitioner
v.
Hospital Espanol
Auxilio Mutuo de
Puerto Rico, Inc.;
Sociedad Espanola
de Auxilio Mutuo y Beneficiencia de Puerto
Rico, Inc.; Sociedad
Espanola de Auxilio
Mutuo Inc.; Jose Isado
Zardon and the
Conjugal Partnership
comprised by him and
Diana Vigil Vigil

CC-2019-236

Certiorari

Respondent
Dispatch Courtroom comprised by Chief Justice Oronoz Rodriguez, Associate Justice Mrs. Pabon Charneco,
and Associate Justice Mr. Peliberti Cintron.

App. 49a
The Reconsideration request filed by the peti­
tioner, denied.
Agreed by the Court and certified by the Clerk of
the Supreme Court.
IN SAN JUAN, PUERTO RICO JUNE 21, 2019
[seal of the Supreme
Court]

[Illegible signature]
Jose Ignacio Campos Perez
Clerk of the Supreme Court

[Ink seal of General Court of Justice]

App. 50a
[SEAL]
Government of Puerto Rico
CERTIFICATE OF GOOD STANDING
I, MARIA A. MARCANO DE LEON, Under Secre­
tary of State of the Government of Puerto Rico,
CERTIFY: That, HOSPITAL ESPANOL AUXILIO
MUTUO DE PUERTO RICO, INC., register number
22651, a non-profit domestic corporation, organized
under the laws of Puerto Rico on April 29, 1992, has
complied with the filing of its Annual Reports.

[SEAL]

IN WITNESS WHEREOF, the under­
signed by virtue of the authority vested
by law, hereby issues this certificate and
affixes the Great Seal of the Government
of Puerto Rico, in the City of San Juan,
Puerto Rico, today, August 13, 2019.
/s/ Maria A. Marcano De Leon
MARIA A. MARCANO DE LEON
Under Secretary of State

To validate this certificate go to: http://estado.pr.gov/
This certificate can be validated an unlimited number
of times before its expiration date of 12-Aug-2020.
Certificate Validation Number: 309335-63002527

App. 51a
NATIONAL PRACTITIONER DCN:
DATA BANK
5500000136590815
NPDB
Process Date: 10 /2018
Page:
1 of 2
P.O. Box 10832
SILVA, SAMUEL
Chantilly, VA 20153-0832
DAVID
https://wwwnpdb.hrsa.gov
For authorized use by:
METRO PAVIA
CLINIC
SILVA, SAMUEL DAVID - ONE-TIME QUERY
RESPONSE
[Recipients should verify that subject identified is, in
feet, the subject of interest.);
Practitioner Name: SILVA, SAMUEL DAVID
Date of Birth:
Gender: MALE
Organization Name: METRO PAVIA CLINIC
Work Address:
ZONA INDUSTRIAL VICTOR
ROJAS II, COTTO STATION,
ARECIBO, PR 00613_______
Home Address:
SAN JUAN, PR 00917-3632
Social Security
***-**-6799 DEA: B55043156
Number:
NPI:
1245225523
License:
PHYSICIAN (MD), 12158, PR,
OBSTETRICS & GYNECOLOGY
Professional
PONCE SCHOOL OF
School(s):
MEDICINE (1992)
SAN JUAN CITY HOSPITAL
(1996)

App. 52a
B. QUERY INFORMATION
Statutes Queried: Title IV; Section 1921; Section
1128E
Query Type:
This is a One-Time query response.
Your organization will only
receive future reports on this
practitioner if another query
is submitted.
Entity Name:
METRO PAVIA CLINIC (DBID
ending in . . . 08)
Authorized
CAMILLE COLON, HR SUPER­
Submitter:
VISOR, (787) 650-0020 Ext. 254
C. SUMMARY OF REPORTS ON FILE WITH
THE DATA BANK AS OF 10/09/2018
The following report types have been searched:
Medical Malpractice Payment Reports):
State Licensure Action(s):
Exclusion or Debarment Action(s):
Government Administrative Action(s):
Clinical Privileges Action(s):
Health Plan Action(s):
Professional Society Action(s):
DEA/Federal Licensure Action(s):
Judgment or Conviction Report(s):
Peer Review Organization Action(s):

Yes, See Below
No Reports
No Reports
No Reports
Yes, See Below
No Reports
No Reports
No Reports
No Reports
No Reports

SIMED
MEDICAL MALPRACTICE PAYMENT
Basis for Action: - IMPROPER MANAGEMENT
Initial Action:- SETTLEMENT Date of 01/25/2016
DCN:
5500000103835126 Action:

App. 53a
HOSPITAL AUXILIO MUTUO
TITLE IV CLINICAL PRIVILEGES
Basis for Action: - VIOLATION OF BY-LAWS,
PROTOCOLS OR GUIDELINES
Initial
Action:

-SUMMARY OR Date of 01/20/2010
EMERGENCY
Action:
SUSPENSION OF
CLINICAL PRIVI­
LEGES
- SUMMARY OR
EMERGENCY
LIMITATION, RE­
STRICTION, OR
REDUCTION OF
CLINICAL PRIVI­
LEGES
- REDUCTION OF
CLINICAL PRIVI­
LEGES

5500000060545358
DCN:
Subsequent - REVOCATION Date of 07/22/2010
Action:
OF CLINICAL
Action:
PRIVILEGES
- MODIFICATION
OF PREVIOUS
ACTION

DCN:

5500000063654454
CONFIDENTIAL DOCUMENT FOR AUTHORIZED USE ONLY
*

*

*

App. 54a
LETTER FROM JAY OLIN (APRIL 10, 2015)
DEPARTMENT OF HEALTH AND HUMAN SER­
VICES Centers for Medicare & Medicaid Services 7500
Security Boulevard, Mail Stop N2-20-16 Baltimore,
Maryland 21244-1850
■_______________
Office of Strategic Operations and Regulatory Affairs/
Freedom of Information Group
Refer to: Control Number 100120147004 and PIN
8SB8
Mr. Samuel D. Silva-Ramirez 243 Paris St PMB 1834
San Juan, PR 00917
Dear Mr. Silva-Ramirez:
This letter is the final response to your amended Free­
dom of information Act (5 U.S.C. § 552) request dated
September 9, 2014 to the Department of Health and
Human Services (DHHS) requesting the Hospital Cost
Reports and the Providers Agreement Documents of
Hospital Auxilio Mutuo, San Juan, Puerto Rico since
the year 1992 up to 2014.
DHHS forwarded your request to the Centers for Med­
icare and Medicaid Services (CMS) to search for re­
sponsive records. The CMS, New York Regional Office
searched for responsive records and released certified
copies of the Cost Reports directly to you and for­
warded the Provider Agreement documents, a total of
78 pages, to me because of my responsibility under the
FOIA. We are releasing certified copies of the Provider
Agreement documents to you in their entirety, without
deletions.

App. 55a
Sincerely yours,
/s/ Jay Olin
Director, Division of FOIA Analysis-C Freedom of in­
formation Group
Enclosure

App. 56a
MEDICARE ENROLLMENT APPLICATION, INSTI­
TUTIONAL PROVIDERS - RELEVANT EXCERPTS
Section 14: Penalties for Falsifying Information
This section explains the penalties for deliberately fur­
nishing false information in this application to gain or
maintain enrollment in the Medicare program.
1. 18 U.S.C. § 1001 authorizes criminal penalties
against an individual who, in any matter within the
jurisdiction of any department or agency of the United
States, knowingly and willfully falsifies. Conceals or
covers up by any trick, scheme or device a material
fact, or makes any false, fictitious, or fraudulent state­
ments or representations, or makes any false writing
or document knowing the same to contain any false,
fictitious or fraudulent statement or entry. Individual
offenders are subject to fines of up to $250,000 and im­
prisonment for up to five years. Offenders that are or­
ganizations are subject to fines of up to $500,000 (18
U.S.C. § 3571). Section 3571(d) also authorizes fines of
up to twice the gross gain derived by the offender if it
is greater than the amount specifically authorized by
the sentencing statute.
2. Section 1128B(a)(l) of the Social Security Act au­
thorizes criminal penalties against any individual
who, “knowingly and willfully,” makes or causes to be
made any false statement or representation of a mate­
rial fact in any application for any benefit or payment
under a Federal health care program. The offender is
subject to fines of up to $25,000 and/or imprisonment
for up to five years.

App. 57a
3. The Civil False Claims Act. 31 U.S.C. § 3729, im­
poses civil liability, in part, on any person who:
a) knowingly presents, or causes to be presented, to
an officer or any employee of the United States Gov­
ernment a false or fraudulent claim for payment or ap­
proval:
b) knowingly makes, uses, or causes to be made or
used, a false record or statement to get a false or fraud­
ulent claim paid or approved by the Government; or
c) conspires to defraud the Government by getting a
false or fraudulent claim allowed or paid.
The Act imposes a civil penalty of $5,000 to $10,000
per violation, plus three times the amount of damages
sustained by the Government
4. Section 1128A(a)(l) of the Social Security Act im­
poses civil liability, in part, on any person (including an
organization, agency or other entity) that knowingly
presents or causes to be presented to an officer, em­
ployee, or agent of the United States, or of any, depart­
ment or agency thereof, or of any State agency ... a
claim . . . that the Secretary determines is for a medi­
cal or other item or service that the person knows or
should know:
a) was not provided as claimed; and/or
b) the claim is false or fraudulent.
This provision authorizes a civil monetary penalty of
up to $10,000.00 for each item or service, an assess­
ment of up to three times the amount claimed, and

App. 58a
exclusion from participation in the Medicare program
and State health care programs.
5. 18 U.S.C. § 1035 authorizes criminal penalties
against individuals in any matter involving a health
care benefit program who knowingly and willfully fal­
sifies, conceals or covers up by any trick, scheme, or de­
vice a material fact; or makes any materially false,
fictitious, or fraudulent statements or representations,
or makes or uses any materially false fictitious, or
fraudulent statement or entry, in connection with the
delivery of or payment for health care benefits, items
or services. The individual shall be fined or imprisoned
up to 5 years or both.
6. 18 U.S.C. § 1347 authorizes criminal penalties
against individuals who knowing and willfully execute,
or attempt, to execute a scheme or artifice to defraud
any health care benefit program, or to obtain, by means
of false or fraudulent pretenses, representations, or
promises, any of the money or property owned by or
under the control of any, health care benefit program
in connection with the delivery of or payment for
health care benefits, items, or services. Individuals
shall be fined or imprisoned up to 10 years or both. If
the violation results in serious bodily injury, an indi­
vidual will be fined or imprisoned up to 20 years, or
both. If the violation results in death, the individual
shall be fined or imprisoned for any term of years or
for life, or both.
7. The government may assert common law claims
such as “common law fraud,” “money paid by mistake,”

App. 59a
and “unjust enrichment” Remedies include compensa­
tory and punitive damages, restitution, and recovery of
the amount of the unjust profit.
Section 15: Certification Statement
An AUTHORIZED OFFICIAL means an appointed of­
ficial (for example, chief executive officer, chief finan­
cial officer, general partner, chairman of the board, or
direct owner) to whom the organization has granted
the legal authority to enroll it in the Medicare pro­
gram. to make changes or updates to the organization’s
status in the Medicare program, and to commit the or­
ganization to fully abide by the statutes, regulations,
and program instructions of the Medicare program,
A DELEGATED OFFICIAL means an individual who
is delegated by an authorized official the authority to
report changes and updates to the provider’s enroll­
ment record. A delegated official must be an individual
with an “ownership or control interest in” (as that term
is defined in Section 1124(a)(3) of the Social Security
Act), or be a W-2 managing employee, of, the provider.
Delegated officials may not delegate their authority to
any other individual. Only an authorized official may
delegate the authority to make changes and/or updates
to the provider’s Medicare status. Even when dele­
gated officials are reported in this application, an au­
thorized official retains the authority to make any such
changes and/or updates by providing his or her printed
name, signature, and date of signature as required in
Section 15B.

App. 60a
NOTE: Authorized officials and delegated officials
must be reported in Section 6. either on this applica­
tion or on a previous application to this same Medicare
fee-for-service contractor. If this is the first time an au­
thorized and/or delegated official has been reported on
the CMS-855A, you must complete Section 6 for that
individual.
By his/her signature(s), an authorized official binds the
provider to all of the requirements listed in the Certi­
fication Statement and acknowledges that the provider
may be denied entry to or revoked from the Medicare
program if any requirements are not met, All signa­
tures must be original and in ink. Faxed, photocopied,
or stamped signatures will not be accepted.
Only an authorized official has the authority to sign (1)
the initial enrollment application on behalf of the pro­
vider or (2) the enrollment application that must be
submitted as part of the periodic revalidation process.
A delegated official does not have this authority.
By signing this application, an authorized official
agrees to immediately notify the Medicare fee-for-ser­
vice contractor if any information furnished on this ap­
plication is not true, correct, or complete. In addition,
an authorized official, by his/her signature, agrees to
notify the Medicare fee-for-service contractor of any fu­
ture changes to the information contained in this form,
after the provider is enrolled in Medicare, in accord­
ance with the timeframes established in 42 C.F.R.
424.516(e).

App. 61a
The provider can have as many authorized officials as
it wants. If the provider has more than two authorized
officials, it should copy and complete this section as
needed.
Each authorized and delegated official must have and
disclose his/her social security number.
A.

Requirements for Medicare Enrollment

These are additional requirements that the provider
must meet and maintain in order to bill the Medicare
program. Read these requirements carefully. By sign­
ing, the provider is attesting to having read the re­
quirements and understanding them.
By his/her signature(s), the authorized official(s)
named below and the delegated official(s) named in
Section 16 agree to adhere to the following require­
ments stated in this Certification Statement:
1. I agree to notify the Medicare contractor of any fu­
ture changes to the information contained in this ap­
plication in accordance with the time frames
established in 42 C.F.R. § 424.516(e). I understand that
any change in the business structure of this provider
may require the submission of a new application.
2. I have read and understand the Penalties for Fal­
sifying Information, as printed in this application. I
understand that any deliberate omission, misrepre­
sentation, or falsification of any information contained
in this application or contained in any communication
supplying information to Medicare, or any deliberate
alteration of any text on this application form, may be

App. 62a
punished by criminal, civil, or administrative penalties
including, but not limited to, the denial or revocation
of Medicare billing privileges, and/or the imposition of
fines, civil damages, and/or imprisonment,
3. I agree to abide by the Medicare laws, regulations
and program instructions that apply to this provider.
The Medicare laws, regulations, and program instruc­
tions are available through the Medicare contractor. I
understand that payment of a claim by Medicare is
conditioned upon the claim and the underlying trans­
action complying with such laws, regulations, and pro­
gram instructions (including, but not limited to, the
Federal anti-kickback statute and the Stark law), and
on the provider’s compliance with all applicable condi­
tions of participation in Medicare.
4. Neither this provider, nor any physician owner or
investor or any other owner, partner, officer, director,
managing employee, authorized official, or delegated
official thereof is currently sanctioned, suspended, de­
barred, or excluded by the Medicare or State Health
Care Program, e.g., Medicaid program, or any other
Federal program, or is otherwise prohibited from sup­
plying services to Medicare or other Federal program
beneficiaries.
5. I agree that any existing or future overpayment
made to the provider by the Medicare program may be
recouped by Medicare through the withholding of fu­
ture payments.
6. I will not knowingly present or cause to be pre­
sented a false or fraudulent claim for payment by

App. 63a
Medicare, and I will not submit claims with deliberate
ignorance or reckless disregard of their truth or falsity.
7. I authorize any national accrediting body whose
standards are recognized by the Secretary as meeting
the Medicare program participation requirements, to
release to any authorized representative, employee, or
agent of the Centers for Medicare & Medicaid Services
(CMS), a copy of my most recent accreditation survey,
together with any information related to the survey
that CMS may require (including corrective action
plans).
B.

1st Authorized Official Signature

I have read the contents of this application. My signa­
ture legally and financially binds this provider to the
laws, regulations, and program instructions of the
Medicare program. By my signature, I certify that the
information Contained herein is true, correct, and com­
plete, and I authorize the Medicare fee-for-service con­
tractor to verify this information. If I become aware
that any information in this application is not true, cor­
rect, or complete, I agree to notify the Medicare fee-forservice contact of this fact in accordance with the time
frames established in 42 CFR § 424520(b).
If you are changing, adding, or deleting information,
check the applicable box, furnish the effective date,
and complete the appropriate fields in this section.
□

Change

Date: 02/03/2014
Authorized Official’s Information and Signature

App. 64a
First Name: Angel
Last Name: Cocero
Telephone Number: (787) 758-2000
Title/Position: Board of Director President
/s/ Angel Cocero
Authorized Official Signature
2/25/2014
C. 2nd Authorized Official Signature
I have read the contents of this application. My signa­
ture legally and financially binds this provider to the
laws, regulations, and program instructions of the
Medicare program. By my signature, I certify that the
information contained herein is true, correct, and com­
plete, and I authorize the Medicare fee-for-service con­
tractor to verify this information. If I become aware
that any information in this application is not true, cor­
rect, or complete. I agree to notify the Medicare fee-forservice contractor of this fact in accordance with the
time frames established in 42 CFR § 424.520(b).
If you are changing, adding, or deleting information,
check the applicable box, furnish the effective date,
and complete the appropriate fields in this section.

□ Change
Date: 02/03/2014
Authorized Official’s Information and Signature
First Name: Jorge
Middle Name: L

App. 65a
Last Name: Matta
Suffix (e.g., Jr., Sr.): MHSA
Telephone Number: (787) 758-2000
Title/Position: Administrator
/s/ Jorge L. Matta
Authorized Official Signature
2/25/2014
All signatures must be original and signed in ink. Ap­
plications with signatures deemed not original will not
be processed. Stamped, faxed or copied signatures will
not be accepted.
Section 16: Delegated official(s) (Optional)
□ You are not required to have a delegated official.
However, if no delegated official is assigned, the au­
thorized official(s) will be the only person(s) who can
make changes and/or updates to the provider’s status
in the Medicare program.
□ The signature of a delegated official shall have the
same force and effect as that of an authorized official,
and shall legally and financially bind the provider to
the laws, regulations, and program instructions of the
Medicare program. By his or her signature, the dele­
gated official certifies that he or she has read the Cer­
tification Statement in Section 15 and agrees to adhere
to all of the stated requirements. The delegated official
also certifies that he/she meets the definition of a del­
egated official. When making changes and/or updates
to the provider’s enrollment information maintained

App. 66a
by the Medicare program, the delegated official certi­
fies that the information provided is true, correct, and
complete.
□ Delegated officials being deleted do not have to
sign or date this application.
□ Independent contractors are not considered “em­
ployed” by the provider and, therefore, cannot be dele­
gated officials.
□ The signature(s) of an authorized official in Sec­
tion 16 constitutes a legal delegation of authority to
any and all delegated official(s) assigned in Section 16.
□ If there are more than two individuals, copy and
complete this section for each individual.
A.

1st Delegated Official Signature

If you are changing, adding, or deleting information,
check the applicable box, furnish the effective date,
and complete the appropriate fields in this section.
□ Change
Date: 02/03/2014
Authorized Official’s Information and Signature
Delegated Official First Name: Rafael
Last Name: Jaca
Telephone Number: (787) 771-7934
Authorized Official Signature
(First, Middle, Last Name, Jr., Sr., M.D., D.O., etc.)
/s/ Rafael Jaca

-X

App. 67a
Authorized Official Signature
2/25/2014
□ Delegated Official is a W-2 Employee

App. 68a
MOTION SUBMITTING DOCUMENTS TRANS­
LATED TO ENGLISH (APRIL 22, 2016) IN THE
UNITED STATES DISTRICT COURT FOR THE DIS­
TRICT OF PUERTO RICO
UNITED STATES OF AMERICA, Ex. Relator,
SAMUEL DAVID SILVA-RAMIREZ, Relator,
Brings This Action on Behalf of THE UNITED
STATES OF AMERICA,
Plaintiff, v.
HOSPITAL ESPANOL AUXILIO MUTUO DE
PUERTO RICO, INC. ET. ALS.,
Defendants.
Civil Num. 13-CV-1813 (CCC)
COMES NOW, Relator on behalf of plaintiff through
its (his) undersigned attorney and very respectfully
states, alleges and prays:
1. At docket 98, relator filed a motion requesting an
extension of time in order to submit translations until
April 22, 2016. The Honorable Court granted it at
docket 106.
2. Plaintiff hereby attached the documents trans­
lated.
3. The documents translated form part of the Exhib­
its attached at docket 97.

App. 69a
WHEREFORE, the appearing party requests to the
Honorable Court to accept the documents translated.
I HEREBY CERTIFY: that a true and exact copy of this
document was forwarded by regular mail to Assistant
U.S. Attorney Hector E. Ramirez Carbo, U.S. Depart­
ment of Justice, Torre Chardon, Suite 1201, 350 Carlos
Chardon Street, San Juan, RR. 00918; Marie V.
Bonkowski, Senior Trial Counsel, Commercial Litiga­
tion Branch, Civil Division, 601 D. Street, N.W., Room
9116, Washington, D.C., 20004.
In San Juan, Puerto Rico, 22nd of April, 2016.
/s/ Glenn Carl James, Esq. USDC-PR 207, 706 JAMES
LAW OFFICE PMB 501 1353 Ave. Luis Vigoreaux
Guaynabo, PR 00966-2700
Tel. (787)763-2888
E-mail: jameslawoffices@centennialpr.net
glenncarljameslawoffices@gmail.com

EXHIBIT LIST
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF PUERTO RICO
UNITED STATES OF AMERICA, Ex. Relator,
SAMUEL DAVID SILVA-RAMIREZ, Relator,
Brings This Action on Behalf of THE UNITED
STATES OF AMERICA,
Plaintiff, v.

App. 70a
HOSPITAL ESPANOL AUXILIO MUTUO DE
PUERTO RICO, INC. ET. ALS.,
Defendants.
Civil Num. 13-CV-1813 (CCC) Plaintiff Demands Trial
by Jury
□

Exhibit 1 Medical Record of Elizabeth Morales

□

Exhibit 2 Medical Record of Yelena Padilla
Bengochea

□

Exhibit 3 Medical Record of Elizabeth Agosto

□

Exhibit 4 Medical Record of Moraima Ocasio

□

Exhibit 5 Medical Record Marisol Morales

App. 71a
DR. SILVA’S MEMORANDUM REGARDING
ELIZABETH MORALES (SEPTEMBER 19, 2002)
I, Carlos Lao Davila, a Federally certified interpreter,
number 03-052, hereby certify that the attached docu­
ment is a true and exact translation of the original
HOSPITAL AUXILIO MUTUO RISK
MANAGEMENT
(787) 758-2000 EXT. 3110------------------------FAX TRANSMITTAL SHEET
TO: DR. SAMUEL SILVA
FROM: BRENDA LEE ROSA MARTINEZ,
MHSA FAX NUMBER: (787) [HW] 753-5034
DATE: SEPTEMBER 19, 2002
TOTAL PAGE INCLUDING COVER: 3
RE: ELIZABETH MORALES DELIVER TO DR.
SILVA
PLEASE CALL WHEN YOU RECEIVE THE FAX
DEAR DOCTOR SILVA:
THROUGH THIS DOCUMENT YOU ARE IN­
FORMED THAT THE REQUEST FOR STERILIZA­
TION OF PATIENT ELIZABETH MORALES WAS
NOT APPROVED
SINCERELY,
[Illegible signature]
BRENDA LEE ROSA MARTINEZ,
MHSA RISK ADMINISTRATION MANAGER

App. 72a
I, Carlos Lao Davila, a Federally certified interpreter,
number 03-052, hereby certify that the attached docu­
ment is a true and exact translation of the original
Hato Rey OB-GYN CENTER HR OB-GYN
Date: 8/07/02
Patient Name: Elizabeth Morales
Pregnancy Number: 03
Live Babies: 01
Miscarriages: 01
Stillborn:
Systematic Illnesses: B. asthma, Endometriosis
RISK MANAGEMENT Samuel D. Silva Ramirez
2002 SEP 12 A 11:28
151 America St Floral Park Hato Rey, Puerto Rico
00917 Off. 753-2015/Fax. 753-5034
Allergies: (/)
Surgeries: 01
Pregnancy complications and Risks:
Medical Reason for Sterilization:
[Illegible] document of patient [illegible]
Delivery Date: 9/27/02
Date of Elective Cesarean: 9118/02
To Whom It May Concern:
Please authorize sterilization for this patient who will
give birth vaginally/elective cesarean in the Auxilio
Mutuo Hospital.

App. 73a
[Illegible] 9/16/2002
Thanks!
The reason for the sterilization is not medical. [Illegi­
ble] I think that if you want sterilization you can do so
somewhere else after the birth. Nun Claribel [Illegible]
Dr. Samuel D. Silva Ramirez 12,158 [Illegible]

App. 74a
LETTER TO MARILINA SIERRA (JULY 21,1997)
U.S. DEPARTMENT OF HEALTH & HUMAN
SERVICES Health Resources & Services
Administration New York HRS A Field Office
26 Federal Plaza, RM. 3337
New York, New York 1027B------------------------Marilina Sierra
Director, Financial Department Auxilio Mutuo
hospital Apartado 1227
Hato Rey, PR 00919-1227
Re: HillBurtonID#720025 Dear Ms. Sierra;
This letter is in reference to the Hill-Burton uncom­
pensated services substantial compliance review con­
ducted on Auxilio Mutuo hospital’s records covering
Fiscal year 1996.
Your facility is Certified as having provided $981,591
in creditable uncompensated services in Fiscal year
1996; Enclosed for your information is a subsequent
substantial compliance summary which shows the
amounts credited for the year reviewed. It also shows
how excess and deficit amounts have accumulated, as
adjusted by the consumer price index. As of the end of
Fiscal year 1996, your facility has an accumulated ex­
cess of $216,800. The hospital’s 20 year eligible use pe­
riod has an expiration date of April 29, 1995. The
accumulated excess through the end of Fiscal year
1996 is more than sufficient to place the hospital in
buy-out status.

App. 75a
Therefore, Auxilio Mutuo Hospital is Certified as hav­
ing completed its uncompensated services obligation
and is no longer required to provide uncompensated
services in accordance with subpart F of the regula­
tions. However please be advised that your facility’s
community services obligations, as specified in Sub­
part G of the regulations, remains in effect in perpetu­
ity. Further information on your facility’s community
services obligations can be obtained from the office for
civil rights, the agency which administrates this por­
tion of the regulations. If you have any questions con­
cerning the community service assurance, the office for
civil rights toll free number 1-800-942-5577.
Any records pertinent to the provision of uncompen­
sated services for the period covered by this review
must be maintained for a minimum of 180 days from
the date of this letter. If you wish to appeal this certifi­
cation decision, you may do so by writing to Dr. Joseph
O’Neill; Director, Bureau of health Resources Develop­
ment, Parklawn Building, 5600 Fishers lane, Rockville,
Maryland 20857, Within 60 days of receipt of this deci­
sion.
Should you have any question concerning the audit
findings, please contact Steven Wong at (212) 2643354.
Sincerely,
/s/ Mark Siegel
Senior Health Facilities Consultant

App. 76a
HOSPITAL AUXILIO MUTUO - PROTOCOL FOR
STERILIZATION OF PATIENTS (MARCH 25, 2016)
Purpose:
Establish the steps to follow in the cases where the
doctor considers it medically indicated to carry out a
sterilization.
Procedure: Introduction:
Every doctor that considers it necessary to carry out
this procedure on his patient must comply with the fol­
lowing steps:
1. File a request for approval to carry out the proce­
dure of sterilization by an official letter to the Head of
the OB-Gyn Department. The same should include the
following information:
a. Name of the patient with the two last names.
b. Age
c. Number of pregnancies, abortions
d. Risks/complications of the patient
e.

Other medical reasons to effect said procedure.

2. The doctor shall file said request at least two (2)
months in advance, a reasonable time so that the Eth­
ics Committee can process the same,
3. The doctor shall advise the patient about the pro­
cess to be followed for the consideration of the request.
4. The request has to be accompanied by a letter from
the priest/pastor of the patient’s parish, where

App. 77a
approval is given, after the appropriate religious ori­
entation.
5. The doctor refers both letters to the Head of the
OB-Gyn Department for its endorsement. It will be the
Head of the Obstetrics and Gynecology who refers said
correspondence to the Ethics Committee.
6. The Ethics Committee will refer the petition to the
Head of the OB-Gyn Department to the Sister Servant
of the Religious Community and the Medical Director
of the Institution for the corresponding approval.
7. The Ethics Committee will proceed with the final
consideration of the request for approval or denial and
will notify the head doctor of its determination to that
regard.
8. The Ethics Committee will send a copy of its deci­
sion to the Head of the Department, Operations Room
and the institutional personnel that intervened in the
process.
9. The Ethics Committee will receive a report in its
regular meeting of the proceedings held during the
previous month. Said Committee will maintain a reg­
ister of the patients and the head doctors that effected
the procedures and of the cases that were denied.
Approved by:
(Illegible signature)
Adrian Colon Laracuente, MD Head,
OB-Gyn Department
June 20,1996 Date of Approval

App. 78a
June 20,1996
June 20,1996
June 20,1996
(Illegible signature) Ibrahim Perez, MD
Medical Director
(Illegible signature)
Angel L. Rivera, MD President, Ethics Committee
(Illegible signature]
Sister Juanita Flores, HC Sister Servant Religious
Community

App. 79a
CERTIFIED TRANSLATION
COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
SAN JUAN-CAGUAS JUDICIAL REGION
JUDICIAL PANEL V
DR. SAMUEL DAVID
SILVA RAMIREZ
Petitioner
v.

Writ of Certio­
rari from the
Court of First
Instance, Ponce
Part

HOSPITAL ESPANOL KLCE201701318 Case No.:
AUXILIO MUTUO
K PED015-3721
DE PUERTO RICO,
INC., SOCIEDAD
Re:
ESPANOLA DE
Rule 49.2,
AUXILIO MUTUO Y
Fraud and Mis­
BENEFICIENCIA
representation
DE PUERTO RICO,
INC.; SOCIEDAD
ESPANOLA DE
AUXILIO MUTUO
INC., DR. JOSE
ISADO-ZARDON
AND THE COMMU­
NITY PROPERTY
COMPOSED BY
HIM AND MRS.
DIANA VIGIL-VIGIL
Appellee

App. 80a
Panel composed of its Chief Justice, Judge SanchezRamos, Judge Soroeta-Kodesh, and Judge RomeroGarcia
DECISION
In San Juan, Puerto Rico, on August 18, 2017.
Upon reviewing the Pro Se Petition for Writ of Cer­
tiorari filed on July 25, 2017, this Court Grants the
petition. Moreover, this Court takes notice of the Peti­
tion for Writ of Certiorari filed on July 25, 2017, which
it has heard.
It was so agreed by the Court and certified by
the Clerk of the Court of Appeals.
[Signed]
Lilia M. Oquendo-Solis, Esq.
Clerk of the Court of Appeals

[SEAL]

I, Juan E. Segarra, USCCI #06-067/translator, certify
that the foregoing is a true and accurate translation,
to the best of my abilities, of the document in Spanish
which I have seen.

